Office of Audits
Report No. AUD-11-012


Material Loss Review of Peninsula Bank,
Englewood, Florida




                                  July 2011
                                      Executive Summary

                                      Material Loss Review of Peninsula Bank,
                                      Englewood, Florida
                                                                                                AUD-11-012
                                                                                                  July 2011

Why We Did The Audit
On June 25, 2010, the Florida Office of Financial Regulation (OFR) closed Peninsula Bank (Peninsula),
Englewood, Florida, and the FDIC was appointed receiver. On September 10, 2010, the FDIC notified
the Office of Inspector General (OIG) that the bank’s total assets at closing were $655.3 million and that
the estimated loss to the Deposit Insurance Fund (DIF) was $192.6 million. As of September 30, 2010,
the estimated loss had increased to $214.5 million, and since that time has remained above $200 million.

As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act, the OIG conducted a material loss review of the
failure of Peninsula. The objectives of the review were to (1) determine the causes of Peninsula’s failure
and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution,
including the FDIC’s implementation of the Prompt Corrective Action (PCA) provisions of section 38 of
the FDI Act.


Background
Peninsula was established as a state nonmember bank in 1986. The bank’s main office was in
Englewood, Florida, which is located on the Gulf of Mexico in southwest Florida. The bank maintained
12 branches in the southern Florida counties of Charlotte, Sarasota, Miami-Dade, Broward, and Palm
Beach. The bank had no holding company, and the institution’s shares were widely held with no
individual shareholder owning more than 10 percent of the outstanding stock.

For a period of several years prior to 2007, and to a lesser extent in 2008, Peninsula’s management
emphasized loan growth. Much of this growth was centered in commercial real estate (CRE), primarily
acquisition, development, and construction (ADC) loans.


Audit Results
Causes of Failure and Material Loss

Peninsula failed primarily because its Board of Directors (Board) and management did not effectively
manage the risks associated with the institution’s rapid growth from 2003 to 2006 that led to a heavy
concentration in CRE and ADC loans. Prior to 2009, Peninsula was considered either Well Capitalized or
Adequately Capitalized. However, the bank’s capital levels did not increase commensurate with the risk
exposure to CRE and ADC loans that the institution assumed during its growth period and maintained
thereafter. Liberal underwriting practices and lax oversight of the lending function also contributed to the
asset quality problems that developed when economic conditions in Peninsula’s lending markets
deteriorated. Although not a primary cause of failure, Peninsula developed a dependency on non-core
funding sources, particularly time deposits of $100,000 or more, and to a lesser extent in later years,
brokered deposits and FHLB borrowings, to support its lending and operations. These funding sources
became limited when Peninsula’s financial condition deteriorated, straining the institution’s liquidity
position.

Peninsula’s excessive concentration in CRE and ADC loans, coupled with weak risk management
practices, made the institution vulnerable to a sustained downturn in the Florida real estate market. In


                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Peninsula Bank,
                                      Englewood, Florida
                                                                                                 AUD-11-012
                                                                                                   July 2011

early 2007, conditions in Peninsula’s primary lending areas began to deteriorate, resulting in a subsequent
decline in the quality of the bank’s loan portfolio. By April 30, 2009, the quality of Peninsula’s loan
portfolio had deteriorated significantly, with the majority of problems centered in CRE loans, particularly
ADC loans. Peninsula’s financial condition continued to deteriorate throughout 2009 and into 2010. The
associated provisions for loan losses depleted Peninsula’s earnings, eroded its capital, and strained its
liquidity. The OFR closed Peninsula on June 25, 2010 because the institution was unable to raise
sufficient capital to support safe and sound operations.

The FDIC’s Supervision of Peninsula

The FDIC, in coordination with the OFR, provided ongoing supervisory oversight of Peninsula through
regular on-site examinations, visitations, and various offsite monitoring activities. Through its
supervisory efforts, the FDIC identified risks in the bank’s operations and brought these risks to the
attention of the institution’s Board and management through examination and visitation reports,
correspondence, and enforcement actions. Such risks included the bank’s heavy concentration in CRE
and ADC loans, liberal loan underwriting and weak credit administration practices, and reliance on non-
core funding sources.

Deterioration in Peninsula’s financial condition was first identified during a visitation initiated by the
FDIC in March 2008. Notably, the visitation preceded the next required on-site examination by several
months and was prompted by an off-site analysis of institutions considered by the FDIC to be at risk due
to their significant exposure to CRE and ADC loans. As a result of the financial deterioration that was
identified during the March 2008 visitation and in the subsequent June 2008 examination, the FDIC and
the OFR entered into a Memorandum of Understanding (MOU) with Peninsula’s Board in November
2008. The MOU addressed, among other things, the need to properly monitor and reduce the bank’s CRE
concentration and improve underwriting and credit administration practices.

The FDIC identified further deterioration in Peninsula’s condition during the May 2009 examination.
Based on the results of that examination, the FDIC replaced the MOU with a Cease and Desist Order
(C&D) in November 2009 that addressed key risks, including the bank’s elevated CRE loan
concentrations, reliance on non-core funding sources, and need for more capital. By this time, however,
the institution’s lending markets had experienced a significant deterioration, making remedial efforts
difficult. The OFR closed Peninsula in June 2010 because the institution was unable to raise sufficient
capital to support safe and sound operations.

The perspectives gained from the failure of Peninsula are not unique. Like other institutions that failed in
recent years, Peninsula developed a significant exposure to CRE and ADC loans at a time when the
bank’s financial condition and lending markets were favorable. This exposure made the bank vulnerable
to a sustained downturn in the real estate market. Such an exposure would be subject to a more forward-
looking risk assessment under the FDIC’s current approach to supervision. Further, a more conservative
supervisory approach with respect to the bank’s reliance on non-core funding, including time deposits of
$100,000 or more and brokered deposits, to support its lending and operations might also have been
prudent. Such an approach may have better positioned the bank to work through its problems when its
lending markets deteriorated.

The FDIC has taken a number of actions to increase its supervisory attention to banks that have risk
profiles similar to Peninsula. Such actions include instituting a training initiative for examiners on


                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                    Material Loss Review of Peninsula Bank,
                                    Englewood, Florida
                                                                                            AUD-11-012
                                                                                              July 2011

forward-looking supervision and issuing additional supervisory guidance on CRE and ADC
concentrations and funds management practices.

Based on the supervisory actions taken with respect to Peninsula, the FDIC properly implemented
applicable PCA provisions of section 38.


Management Response
The Director, Division of Risk Management Supervision (RMS), provided a written response, dated
July 15, 2011, to a draft of the report. In the response, RMS reiterated the causes of failure and the
supervisory activities described in the report. The response also noted that the FDIC issued a Financial
Institution Letter (FIL) in 2008, entitled Managing Commercial Real Estate Concentrations in a
Challenging Environment, that re-emphasized the importance of robust credit risk-management practices
for institutions with concentrated CRE exposures and set forth broad supervisory expectations. In
addition, the response referenced a 2009 FIL, entitled The Use of Volatile or Special Funding Sources by
Financial Institutions That Are in a Weakened Condition, issued by RMS to enhance FDIC supervision of
institutions with concentrated CRE lending and reliance on volatile, non-core funding sources.




                                To view the full report, go to www.fdicig.gov
                              Contents

Background                                                         2

Causes of Failure and Material Loss                                3
 Concentrations in CRE and ADC Loans                               4
 Risk Management Practices                                         6
 Reliance on Non-core Funding Sources                              8

The FDIC’s Supervision of Peninsula                               10
 Supervisory History                                              11
 Offsite Monitoring                                               11
 Informal and Formal Actions                                      12
 Supervisory Response to Key Risks                                12
 Implementation of PCA                                            16

OIG Evaluation of Corporation Comments                            18

Appendices 
 1. Objectives, Scope, and Methodology                            20
 2. Glossary of Terms                                             23
 3. Acronyms                                                      27
 4. Peninsula’s Risk Management Weaknesses by Examination and     28
    Visitation
 5. Corporation Comments                                          29

Tables
 1. Select Financial Information for Peninsula, 2006-2010          3
 2. Peninsula’s Non-core Funding Sources and Related Dependence    9
    Ratios
 3. Onsite Examinations and Visitations of Peninsula              11
 4. Peninsula’s Capital Levels, 2005-2010                         17

Figure
Peninsula’s CRE Loan Concentration Compared to Peer Group          5
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     July 21, 2011

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Mark F. Mulholland
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Peninsula Bank, Englewood,
                                          Florida (AUD-11-012)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI) Act, and as
amended by the Dodd-Frank Wall Street Reform and Consumer Protection Act (the
Financial Reform Act), the Office of Inspector General (OIG) conducted a material loss
review (MLR) of the failure of Peninsula Bank (Peninsula), Englewood, Florida. The
Florida Office of Financial Regulation (OFR) closed the institution on June 25, 2010, and
the FDIC was appointed receiver. On September 10, 2010, the FDIC notified the OIG that
the bank’s total assets at closing were $655.3 million and that the estimated loss to the
Deposit Insurance Fund (DIF) was $192.6 million. However, the estimated loss increased
to $214.5 million as of September 30, 2010, and since that time has remained above the
$200 million MLR threshold established by the Financial Reform Act for losses occurring
between January 1, 2010 and December 31, 2011.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of the review were to (1) determine the causes of Peninsula’s failure and
the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act. The report does not contain formal recommendations. Instead, as major
causes, trends, and common characteristics of institution failures are identified in our
MLRs, we will communicate those to FDIC management for its consideration. As
resources allow, we may also conduct more comprehensive reviews of specific aspects of
the FDIC’s supervision program and make recommendations as warranted.1
1
 A further discussion of OIG-related coverage of financial institution failures can be found in the Objectives,
Scope, and Methodology section of our report.
This report includes several appendixes. Appendix 1 contains details on our objectives,
scope, and methodology; Appendix 2 contains a glossary of key terms, including material
loss, the FDIC’s supervision program, and the Uniform Financial Institutions Rating
System, otherwise known as the CAMELS ratings; Appendix 3 contains a list of
acronyms; and Appendix 4 contains a summary of Peninsula’s risk management
weaknesses included in examination and visitation reports issued from 2006 to 2009.
Appendix 5 contains the Corporation’s comments on this report.


Background
Peninsula was established as a state nonmember bank in 1986. The bank’s main office
was in Englewood, Florida, which is located on the Gulf of Mexico in southwest Florida.
The bank maintained 12 branches in the southern Florida counties of Charlotte, Sarasota,
Miami-Dade, Broward, and Palm Beach. The bank had no holding company, and the
institution’s shares were widely held with no individual shareholder owning more than
10 percent of the outstanding stock. Several years prior to Peninsula’s failure, a majority
of the bank’s shareholders entered into an irrevocable agreement to exercise their voting
rights in accordance with the majority recommendation of a shareholder committee. The
shareholder committee consisted of the Chairman of the Board of Directors (Board) and
Chief Executive Officer and two other shareholders.

In an effort to diversify its income sources, Peninsula implemented a Certificate of
Deposit (CD) Custodial Program in 1997. Under the program, Peninsula served as a CD
custodian, performed recordkeeping, and remitted cash flows primarily for CD brokers. In
2002, litigation was brought against the bank in connection with a custodial relationship
under the program, resulting in a $13 million judgment against the bank. The judgment
created a net loss for the institution in 2006. However, Peninsula recovered $8 million
upon appeal in 2010.

For a period of several years prior to 2007, and to a lesser extent in 2008, Peninsula’s
management emphasized loan growth. Much of this growth was centered in commercial
real estate (CRE), primarily acquisition, development, and construction (ADC) loans.
Peninsula also relied on potentially volatile time deposits of $100,000 or more, and
beginning in 2008, on brokered deposits and Federal Home Loan Bank (FHLB) advances
to support its lending and operations. Table 1 summarizes selected financial information
for Peninsula as of March 31, 2010 and for the 4 preceding calendar year-ends.




                                             2
Table 1: Select Financial Information for Peninsula, 2006-2010
    Financial Data          Mar-10        Dec-09         Dec-08    Dec-07     Dec-06
       ($000s )
 Total Assets               630,179      625,594        656,256    623,519    668,711

 Total Loans                403,181      407,831        460,427    430,792    447,320
 Time Deposits of
 $100,000 or More           251,635      214,631        247,336    244,511    252,272

 Brokered Deposits              693       17,651         54,591     15,077     12,390

 Total Deposits             580,140      560,789        528,927    549,355    598,470

 FHLB Advances               50,000       50,000         50,018         0          0
 Net Income (Loss)          (3,770 )     (48,612)        (5,293)     6,418      (737)
Source: Uniform Bank Performance Reports (UBPR) for Peninsula.



Causes of Failure and Material Loss
Peninsula failed primarily because its Board and management did not effectively manage
the risks associated with the institution’s rapid growth from 2003 to 2006 that led to a
heavy concentration in CRE and ADC loans. Prior to 2009, Peninsula was considered
either Well Capitalized or Adequately Capitalized. However, the bank’s capital levels did
not increase commensurate with the risk exposure to CRE and ADC loans that the
institution assumed during its growth period and maintained thereafter. Liberal
underwriting practices and lax oversight of the lending function also contributed to the
asset quality problems that developed when economic conditions in Peninsula’s lending
markets deteriorated. Although not a primary cause of failure, Peninsula developed a
dependency on non-core funding sources, particularly time deposits of $100,000 or more,
and to a lesser extent in later years, brokered deposits and FHLB advances, to support its
lending and operations. These funding sources became limited when Peninsula’s financial
condition deteriorated, straining the institution’s liquidity position.

Peninsula’s excessive concentration in CRE and ADC loans, coupled with weak risk
management practices, made the institution vulnerable to a sustained downturn in the
Florida real estate market. In early 2007, conditions in Peninsula’s primary lending areas
began to deteriorate, resulting in a subsequent decline in the quality of the bank’s loan
portfolio. By April 30, 2009, the quality of Peninsula’s loan portfolio had deteriorated
significantly, with the majority of problems centered in CRE loans, particularly ADC
loans. Peninsula’s financial condition continued to deteriorate throughout 2009 and into
2010. The associated provisions for loan losses depleted Peninsula’s earnings, eroded its
capital, and strained its liquidity. The OFR closed Peninsula on June 25, 2010 because the
institution was unable to raise sufficient capital to support safe and sound operations.




                                                3
Concentrations in CRE and ADC Loans

Peninsula’s Board Chairman and CEO exerted significant influence over the bank’s other
Board members and steered the bank toward a high-growth strategy that resulted in
excessive exposure to CRE and ADC loans. This strategy, coupled with ineffective risk
management practices, was a primary factor in the bank’s critically deficient asset quality,
capital, and earnings.

During the 3-year period ended December 31, 2006, Peninsula grew its loan portfolio by
126 percent. Contributing to this growth was an increase in total CRE loans (including
ADC loans) from $170 million at year-end 2003 to $381 million at year-end 2006. As of
December 31, 2007, ADC loans represented 59 percent of Peninsula’s $357 million CRE
portfolio.2 Peninsula’s ADC loans included speculative construction and land
development projects in Florida.3

In December 2006, the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System issued guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance). The purpose of the Joint Guidance was to reinforce existing regulations
and guidelines for real estate lending and safety and soundness. The Joint Guidance states
that the federal banking agencies have observed an increasing trend in the number of
institutions with concentrations in CRE loans and noted that rising CRE concentrations
could expose institutions to unanticipated earnings and capital volatility in the event of
adverse changes in the general CRE market.

Although the Joint Guidance does not establish specific CRE lending limits, it does define
criteria that the agencies use to identify institutions potentially exposed to significant CRE
concentration risk. According to the Joint Guidance, an institution that has experienced
rapid growth in CRE lending, has notable exposure to a specific type of CRE, or is
approaching or exceeds the following supervisory criteria may be identified for further
supervisory analysis of the level and nature of its CRE concentration risk:

        Total CRE loans representing 300 percent or more of total capital where the
         outstanding balance of the institution’s CRE loan portfolio has increased by
         50 percent or more during the prior 36 months; or

        Total loans for construction, land development, and other land (referred to in this
         report as ADC loans) representing 100 percent or more of total capital.




2
  In 2007, an FDIC compliance examiner found that Peninsula had erroneously identified $137 million in
ADC loans as other CRE loans in the bank’s Call Reports. With the FDIC’s consent, the bank adjusted its
Call Reports back to the first quarter of 2007. As a result, no records are available that clearly identify the
extent of the bank’s ADC lending within its CRE loan portfolio prior to 2007.
3
  Speculative construction lending involves the financing of projects for which a buyer has not yet been
identified.


                                                        4
As of December 31, 2007, Peninsula’s non-owner-occupied4 CRE loans and ADC loans
represented 562 percent and 344 percent, respectively, of the institution’s total capital.
These concentrations significantly exceeded the levels defined in the Joint Guidance as
possibly warranting further supervisory analysis. Peninsula’s total CRE loan
concentration also significantly exceeded the bank’s peer group average, as reflected in
the figure below.

Peninsula’s CRE Loan Concentration Compared to Peer Group

                 1200.00%




                 800.00%
    Percentage




                 400.00%




                   0.00%
                                                  Period Ending
                            Dec-03    Dec-04     Dec-05      Dec-06      Dec-07     Dec-08

                 Peninsula 603.22%    686.78% 797.18%       689.67%     579.37% 641.07%
                 Peer       312.34%   330.64% 358.11%       371.53%     377.29% 380.10%



Source: OIG analysis of UBPRs for Peninsula.

Prior to 2009, Peninsula was considered either Well Capitalized or Adequately
Capitalized. However, the bank’s capital levels did not increase commensurate with the
risk exposure to CRE and ADC loans that the institution assumed during its growth period
and maintained thereafter.5 This had the effect of reducing the bank’s ability to absorb
losses due to unforeseen circumstances and contributed to the losses incurred by the DIF
when the institution failed.



4
  Although the 2006 Joint Guidance includes non-owner and owner-occupied CRE loans in the CRE
concentration ratio, the Joint Guidance recognizes the rationale for excluding owner-occupied CRE loans
where the primary source of repayment is not from cash flow of the real estate collateral. The Joint
Guidance also recognizes that risk characteristics vary by different property types of CRE loans and that
institutions are in the best position to identify potential concentrations by stratifying their CRE portfolios
into segments with common risk characteristics.
5
  The FDIC’s Risk Management Manual of Examination Policies (Examination Manual) states that
institutions should maintain capital commensurate with the level and nature of risk to which the institutions
are exposed. In addition, the amount of capital necessary for safety and soundness purposes may differ
significantly from the amount needed to maintain a Well Capitalized or Adequately Capitalized position for
PCA purposes.


                                                       5
At the time of the June 2008 examination, Peninsula’s adversely classified assets were
$76.2 million (or 123 percent of Tier 1 Capital and the Allowance for Loan and Lease
Losses (ALLL)), posing significant risk to the institution. Approximately $60 million of
the classifications consisted of loans, the majority of which were ADC loans. By the
May 2009 examination, adversely classified assets had increased to $195.5 million (or
332 percent of Tier 1 Capital and the ALLL). The majority of these classifications
consisted of ADC loans. In its final Call Report for the quarter ended March 31, 2010,
Peninsula reported that 40 percent of its total loan portfolio was in a nonaccrual status.
Further, about 64 percent of the bank’s ADC loan portfolio was not performing at that
time.

Risk Management Practices

ADC lending generally involves a greater degree of risk than permanent financing for
finished residences or commercial buildings. Associated risks include adverse changes in
market conditions between the time an ADC loan is originated and the time construction is
completed, as well as the inherent difficulty of accurately estimating the cost of
construction and the value of completed properties in future periods. Due to these and
other risk factors, ADC loans generally require greater effort to effectively evaluate and
monitor than other types of loans.

Concentration Risk Management Practices

Examiners noted during the April 2006 examination that Peninsula’s concentration risk
management practices needed improvement. Specifically, examiners recommended that
the Board expand the Loan Policy to include risk targets for loan concentrations as a
percentage of capital and adopt comprehensive monitoring procedures for real estate
concentrations. At that time, the loan policy did not contain specific concentration limits
by loan category, such as land or residential, or underwriting criteria for managing CRE
risk. During the June 2008 examination, examiners noted that the institution had not
implemented formal market analyses regarding CRE trends or stress tested the loan
portfolio as prescribed in the Joint Guidance.6 Examiners recommended that Peninsula
properly monitor and reduce the overall CRE concentration, including the ADC
concentration.

Loan Underwriting, Credit Administration, and Related Monitoring

Peninsula’s weak risk management of its lending function also contributed to the asset
quality problems that developed when economic conditions in the bank’s lending markets
deteriorated. With the exception of the June 2007 examination, examiners noted
weaknesses in Peninsula’s loan underwriting, credit administration, and related monitoring
practices at every examination and visitation conducted between 2006 until the bank’s
failure. Notably, Peninsula’s loan policy lacked detailed guidance on underwriting and
6
 The Joint Guidance recommends that institutions develop appropriate strategies for managing CRE
concentration levels, including a contingency plan to reduce or mitigate concentrations in the event of
adverse market conditions. Such strategies could include, for example, loan participations, loan sales, and
securitizations, to mitigate concentration risk.


                                                      6
credit administration criteria. For example, the policy did not adequately address the use
of interest reserves, the capitalization of interest, renewal and extension procedures,
advances to internally classified borrowers, cash flow requirements or analyses, or
regulatory requirements related to the ALLL. A summary of Peninsula’s weak lending
practices follows. Additionally, Appendix 4 contains a summary of risk management
weaknesses identified during examinations and visitations conducted between 2006 and
2009.

Loan Underwriting. Examiners identified the following weak underwriting practices.

       Loan Extensions and Renewals. According to the Examination Manual, it is
        important that a bank’s real estate loan policy ensure that loans are granted with a
        reasonable probability that debtors will be able and willing to meet their payment
        terms. Peninsula frequently renewed, extended, or modified loans without taking
        adequate steps to ensure that the borrower had the capacity to repay the loan.
        Further, the bank routinely extended and renewed loans without the full collection
        of accrued interest and without reducing the principal balance of the loan when
        appropriate.

       Interest Reserves. Regional Directors Memorandum 2008-021, Supervising
        Institutions with Commercial Real Estate Concentrations, issued by the FDIC’s
        Division of Risk Management Supervision (RMS),7 describes risks associated with
        the use of interest reserves. The memorandum states that if a project experiences
        delays or has diminished feasibility resulting from a weak local real estate market,
        interest reserves can inappropriately disguise a problem credit relationship from
        showing up on delinquency reports. Accordingly, the effectiveness of a bank’s
        control of interest reserves and its internal reporting on the use of these reserves is
        vitally important to institutions with construction and development loan
        concentrations. Examiners noted that Peninsula did not use interest reserves
        appropriately. For example, examiners noted instances in which additional interest
        reserves were granted for holding and speculating on undeveloped land without
        foreseeable improvement in the property’s markets. The bank also inappropriately
        funded additional interest reserves when the original interest reserve was depleted
        or the loan was renewed or extended.

       Reliance on Collateral Value. The Examination Manual states that placing undue
        reliance upon a property’s appraised value in lieu of an adequate initial assessment
        of the debtor’s repayment ability is a potential mistake. The Manual states that
        management should analyze the borrower’s financial statements for sources of
        repayment other than the expected return from the property’s development.
        Examiners noted that Peninsula placed excessive reliance on collateral values at
        loan inception and throughout the loan term, rather than obtaining the borrower’s
        documented cash flow.

7
 In conjunction with other organizational changes made to enhance the FDIC’s ability to carry out its new
and enhanced responsibilities under the Financial Reform Act, the Division of Supervision and Consumer
Protection became RMS effective February 13, 2011.


                                                     7
       Global Cash Flow Analyses. FDIC Financial Institution Letter (FIL) 22-2008,
        Managing Commercial Real Estate Concentrations in a Challenging Environment,
        emphasizes the importance of performing global financial analyses for obligors.
        Such analyses can provide early indications of problems and are essential in
        determining whether it is prudent to continue to work with a borrower or pursue an
        exit strategy. Peninsula did not perform adequate global cash flow analyses of
        borrowers when loans were originated or renewed. For example, contingent
        liabilities and debt service requirements of borrowers were often not fully
        considered.

Credit Administration and Loan Monitoring. As described below, examiners
identified deficiencies pertaining to credit administration and loan monitoring during
examinations of Peninsula.

       Borrower Financial Information. The Examination Manual discusses the
        importance of maintaining current loan documentation, such as borrower financial
        statements and cash flow statements. Peninsula did not consistently maintain
        current or updated financial information during the terms of its loans.
.
       Appraisals. Part 323, Appraisals, of the FDIC Rules and Regulations, identifies
        real estate financial transactions requiring the services of an appraiser. The June
        2008 and May 2009 examination reports noted a lack of appraisals on certain real
        estate loans, resulting in apparent violations of the appraisal regulations.

       Loan Review. According to the Examination Manual, it is essential that all
        institutions have an effective loan review system. Accurate and timely credit
        grading is a primary component of an effective loan review system. Credit grading
        involves an assessment of credit quality, the identification of problem loans, and
        the assignment of risk ratings. Peninsula did not have an effective loan review and
        internal grading system as management failed to recognize problem credits in a
        timely and appropriate manner.

Reliance on Non-core Funding Sources

Although not a primary cause of failure, Peninsula used non-core funding sources, such as
time deposits of $100,000 or more, and to a lesser extent, brokered deposits, repurchase
agreements, and FHLB advances, to fund its lending and operations. When properly
managed, non-core funding sources offer a number of important benefits, such as ready
access to funds in national markets when core deposit growth in local markets lags
planned asset growth. However, non-core funding sources also present potential risks,
such as increased volatility when interest rates change, and statutory and regulatory
restrictions that take effect when the financial condition of an institution deteriorates.
Under distressed financial or economic conditions, institutions could be required to sell
assets at a loss in order to fund deposit withdrawals and other liquidity needs. As reflected




                                              8
in Table 2, Peninsula maintained an elevated net non-core funding dependence ratio8
between 2007 and the institution’s failure.

Table 2: Peninsula’s Non-core Funding Sources and Related Dependence Ratios
    Non-core Funding          Mar 2010      Dec 2009      Dec 2008       Dec 2007    Dec 2006      Dec 2005
    Sources ($000)
                                                             Amount ($000)
    Time Deposits of
    $100,000 or More            251,635       214,631       247,336       244,511      252,272       139,753
    Brokered Deposits                693       17,651        54,591         15,077      12,390        26,907
 FHLB Advances                50,000         50,000          50,018          0            0            0
 Net Non-core Funding
 Dependence Ratio            48.49%        44.27%           55.94%         35.01%      24.45%        17.49%
Source: OIG analysis of UBPRs for Peninsula.

Contributing to the increase in Peninsula’s potentially volatile liabilities were large time
deposits, brokered deposits, and FHLB advances. Between June 30, 2007 and December
31, 2008, brokered deposits increased from $6 million (or 1 percent of total deposits) to
$55 million (or 10 percent of total deposits). Concurrently, FHLB advances increased
from zero to $50 million. Time deposits of $100,000 or more represented the bank’s
largest potentially volatile liability, averaging approximately 46 percent of total deposits
between 2007 and 2008. The high cost of these deposits contributed to Peninsula’s
declining net interest margins.

As discussed more fully in The FDIC’s Supervision of Peninsula section of this report, the
FDIC granted the bank a brokered deposit waiver on May 25, 2006 after the bank became
Adequately Capitalized as of September 30, 2005. The waiver permitted Peninsula to
obtain and renew up to $50 million in brokered deposits for a period of 1 year. During the
fourth quarter of 2006, Peninsula became Well Capitalized and no longer needed the
waiver. By March 31, 2009, the institution had fallen back to Adequately Capitalized and
was again prohibited from accepting, renewing, or rolling over brokered deposits without
a waiver from the FDIC. As a result of the May 2009 examination, Peninsula reported an
Undercapitalized position in its June 30, 2009 Call Report, which, by statute, prohibited
the bank from accepting brokered deposits.

While Peninsula made efforts during 2008 and 2009 to increase its core deposits, the
ongoing decline in the bank’s financial condition increased its liquidity risk profile.
During the 2009 examination, examiners reported that the bank needed a contingency
liquidity plan that addressed funding strategies under adverse economic and operating
conditions. By May 2010, Peninsula’s inability to access funding sources, such as FHLB
advances and brokered deposits, was straining its liquidity position.



8
 This ratio is a measure of the degree to which an institution relies on non-core funding to support long-term
assets (such as loans that mature in over 1 year). An elevated ratio reflects heavy reliance on potentially
volatile funding sources.


                                                      9
The FDIC’s Supervision of Peninsula
The FDIC, in coordination with the OFR, provided ongoing supervisory oversight of
Peninsula through regular on-site examinations, visitations, and various offsite monitoring
activities. Through its supervisory efforts, the FDIC identified risks in the bank’s
operations and brought these risks to the attention of the institution’s Board and
management through examination and visitation reports, correspondence, and enforcement
actions. Such risks included the bank’s heavy concentration in CRE and ADC loans,
liberal loan underwriting and weak credit administration practices, and reliance on non-
core funding sources.

Deterioration in Peninsula’s financial condition was first identified during a visitation
initiated by the FDIC in March 2008. Notably, the visitation preceded the next required
on-site examination by several months and was prompted by an off-site analysis of
institutions considered by the FDIC to be at risk due to their significant exposure to CRE
and ADC loans. As a result of the financial deterioration that was identified during the
March 2008 visitation and in the subsequent June 2008 examination, the FDIC and the
OFR entered into a Memorandum of Understanding (MOU) with Peninsula’s Board in
November 2008. The MOU addressed, among other things, the need to properly monitor
and reduce the bank’s CRE concentration and improve underwriting and credit
administration practices.

The FDIC identified further deterioration in Peninsula’s condition during the May 2009
examination. Based on the results of that examination, the FDIC replaced the MOU with
a Cease and Desist Order (C&D) in November 2009 that addressed key risks, including
the bank’s elevated CRE loan concentrations, reliance on non-core funding sources, and
need for more capital. By this time, however, the institution’s lending markets had
experienced a significant deterioration, making remedial efforts difficult. The OFR closed
Peninsula in June 2010 because the institution was unable to raise sufficient capital to
support safe and sound operations.

The perspectives gained from the failure of Peninsula are not unique. Like other
institutions that failed in recent years, Peninsula developed a significant exposure to CRE
and ADC loans at a time when the bank’s financial condition and lending markets were
favorable. This exposure made the bank vulnerable to a sustained downturn in the real
estate market. Such an exposure would be subject to a more forward-looking risk
assessment under the FDIC’s current approach to supervision. Further, a more
conservative supervisory approach with respect to the bank’s reliance on non-core
funding, including time deposits of $100,000 or more and brokered deposits, to support its
lending and operations might also have been prudent. Such an approach may have better
positioned the bank to work through its problems when its lending markets deteriorated.

The FDIC has taken a number of actions to increase its supervisory attention to banks that
have risk profiles similar to Peninsula. Such actions include instituting a training initiative
for examiners on forward-looking supervision and issuing additional supervisory guidance
on CRE and ADC concentrations and funds management practices.


                                              10
Supervisory History

Between 2006 and 2010, the FDIC and the OFR conducted four onsite examinations and
three visitations of Peninsula. The frequency of this examination activity was consistent
with relevant provisions of the FDI Act and the FDIC Rules and Regulations.9 Table 3
summarizes key supervisory information pertaining to these examinations and visitations.

Table 3: Onsite Examinations and Visitations of Peninsula
    Examination     Examination or                             Supervisory
    or Visitation     Visitation                                 Ratings             Informal or Formal
     Start Date       as of Date            Regulator            (UFIRS)                Action Taken
      4/10/2006       12/31/2005              FDIC               212121/2         None
       6/4/2007        3/31/2007              OFR                111211/1         None
     3/17/2008*       12/31/2007              FDIC                 None           None
      6/16/2008        3/31/2008              FDIC               343422/3         MOU dated 11/20/2008
      5/26/2009        3/31/2009            FDIC/OFR             555544/5         C&D dated 11/20/2009
     12/14/2009*       9/30/2009              FDIC               555554/5         C&D still in effect
      5/3/2010*        3/31/2010              FDIC               555555/5         C&D still in effect
Source: OIG analysis of examination and visitation reports and information in the FDIC’s Virtual Supervisory
Information on the Net system for Peninsula.
* Denotes a visitation.

Offsite Monitoring

The FDIC’s offsite monitoring procedures generally consisted of contacting the bank’s
management from time to time to discuss current and emerging business issues and using
automated tools10 to help identify potential supervisory concerns. As previously
mentioned, the FDIC conducted an onsite analysis in early 2008 to identify institutions
that were at risk due to their significant exposure to CRE and ADC loans. The analysis
was performed in response to the adverse effect that the downturn in the housing market
was having on construction and real estate development activity at that time. Recognizing
that banks with large exposures to CRE loans, especially ADC loans, may be negatively
affected, the FDIC analyzed Call Report information to identify banks with concentrated
exposures in CRE and ADC loans that were operating in markets that the FDIC designated
as “distressed” or “at risk.” One of the institutions identified was Peninsula. The FDIC
initiated a visitation of the bank in March 2008.

In July 2008, an offsite review triggered by Peninsula’s March 31, 2008 Call Report noted
problems. At that time, SCOR was indicating a probability of more than 30 percent that
all of the bank’s CAMELS component ratings would be downgraded at the next
9
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, onsite examinations of every state nonmember bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (i.e., total assets of less than
$500 million) if certain conditions are satisfied.
10
   The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating system (SCOR) and the Growth Monitoring System.
Both tools use statistical techniques and Call Report data to identify potential risks, such as institutions
likely to receive a supervisory downgrade at the next examination or institutions experiencing rapid growth
and/or a funding structure highly dependent on non-core funding sources.


                                                       11
examination. The probability of a downgrade in the Asset Quality component rating was
89 percent, in large part due to an increase in loans that were more than 90 days past due
and loans that were designated nonaccrual. Since the preliminary results of the June 2008
examination verified the deterioration in Peninsula’s asset quality, no additional offsite
action was taken at that time.

Informal and Formal Actions

Based on the results of the June 2008 examination, the FDIC, in coordination with the
OFR, entered into an MOU with Peninsula in November 2008. Among other things, the
MOU required Peninsula to:

      address the management weaknesses identified during the examination;

      reduce credit concentrations and improve monitoring procedures;

      strengthen loan underwriting and credit administration; and

      improve loan review practices and the bank’s internal grading system.

Based on the results of the May 2009 examination, the FDIC, in coordination with the
OFR, issued a C&D against Peninsula in November 2009. Among other things, the C&D
required the bank to:

      increase the level of participation by its Board in the affairs of the institution;

      maintain a Tier 1 Leverage Capital ratio of 8 percent or more and a Total Risk-
       Based Capital ratio of 12 percent or more;

      reduce credit concentrations and improve monitoring procedures;

      perform periodic reviews of the bank’s loan portfolio on the basis of credit quality;

      reduce the bank’s reliance on non-core funding sources and develop a plan to
       improve liquidity, contingency funding, interest rate risk, and asset liability
       management; and

      discontinue accepting, renewing, or rolling over brokered deposits consistent with
       FDIC regulations.

Supervisory Response to Key Risks

The scope of our work focused on the FDIC’s supervision of the bank from 2006 to the
bank’s closure in June 2010. A summary of supervisory activities related to the bank’s
key risks during that period follows.



                                              12
2006 Supervisory Activities

Examiners determined during the April 2006 examination that Peninsula’s overall
financial and operational condition was satisfactory. At that time, real estate conditions in
the bank’s lending markets were showing some signs of weakening. Further, the
examination report recommended that the bank improve its risk management practices in
various areas. Most notably, examiners recommended that the bank better monitor its loan
concentrations and amend its loan policy to establish risk tolerance limits for its
concentrations. At the time of the examination, the bank was experiencing rapid growth,
and its non-owner-occupied CRE loan concentration represented 700 percent of Tier 1
Capital and the ALLL.

Examiners determined that Peninsula’s capital position was satisfactory for the bank’s risk
profile. Based on Call Report data, Peninsula had fallen to Adequately Capitalized as of
September 30, 2005. As a result, Peninsula was restricted by section 29 of the FDI Act
and section 337 of the FDIC Rules and Regulations from accepting, renewing, or rolling
over brokered deposits without a waiver from the FDIC. Notwithstanding these
restrictions, Peninsula increased its level of brokered deposits during the fourth quarter of
2005 by $8 million in apparent violation of the referenced brokered deposit restrictions.
Examiners did not cite the apparent violation in the examination report due to an
oversight.

Bank management informed the examiners during the examination that the institution’s
goal was to maintain a Well Capitalized position, with a Tier 1 Leverage Capital ratio
above 8 percent. In May 2006, the FDIC granted Peninsula a brokered deposit waiver that
permitted the bank to obtain and renew up to $50 million in brokered deposits for a period
of 1 year. At that time, the bank had about $17 million in brokered deposits. During the
fourth quarter of 2006, Peninsula returned to Well Capitalized after raising $17 million in
new capital and no longer needed a waiver to obtain brokered deposits.

2007 Supervisory Activities

During the June 2007 examination, OFR examiners determined that Peninsula’s overall
financial and operational condition was strong. Examiners assigned a composite rating of
“1” and component ratings of “1” with the exception of the Earnings component, which
received a rating of “2.” Examiners determined that earnings were satisfactory,
notwithstanding a loss stemming from a nonrecurring charge of $13 million in connection
with the bank’s CD Custodial Program (discussed in the Background section of this
report).

Conditions in Peninsula’s lending markets were weakening, and the examination report
noted that the bank’s adversely classified loans had increased from $262,000 at the prior
examination to $6.3 million. In addition, the bank’s classified assets coverage ratio was
13 percent. The report also noted that a large amount of the bank’s classifications
pertained to seven loans totaling $5.3 million, five of which were transferred to other real
estate owned. The examination report further stated that the bank had a large
concentration of CRE loans, representing 658 percent of risk-based capital. Examiners


                                             13
concluded that Peninsula’s CRE loan concentration was satisfactorily monitored and
reported and that the bank had adequately addressed related recommendations made in the
prior examination report. The examination report added that Peninsula was relying on
potentially volatile liabilities to fund long-term assets.

Notwithstanding the bank’s apparent sound financial condition at the time of the
examination, the ratings assigned did not fully reflect (on a forward-looking basis) the
substantial risk associated with the institution’s CRE loan portfolio.

2008 Supervisory Activities

The FDIC conducted a limited scope visitation in March 2008 to assess the risk associated
with Peninsula’s significant CRE loan concentration. Examiners determined that the
bank’s asset quality had deteriorated. Concerns were also identified pertaining to the
bank’s CRE lending risk management practices, increasing past-due and nonaccrual loans,
and underwriting and credit administration. Further, examiners noted instances of
outdated appraisals and a lack of financial information and global cash flow analyses for
borrowers. Examiners recommended that management set risk limits for the CRE
concentration, improve internal loan review practices, and develop an interest reserve
policy for ADC loans.

Examiners determined during the June 2008 examination that Peninsula’s overall financial
and operational condition was less than satisfactory and downgraded the bank’s composite
rating from a “1” to a “3.” The bank’s adversely classified assets had significantly
increased following the previous examination, and the bank still had a significant exposure
to CRE and ADC loans. Examiners downgraded the Asset Quality component from a “1”
to a “4” and recommended that the bank establish risk limits for the CRE portfolio, set
individual loan risk limits, and better measure and monitor CRE risks. In addition, the
bank’s loan underwriting and credit administration practices were inadequate.
Specifically, examiners determined that the bank’s loan policy needed to be enhanced to
better address the use of interest reserves, renewals and extensions, and cash flow
analyses. Examiners also identified apparent violations of law and contraventions of
regulatory policies with respect to appraisals, CRE concentration and lending risk, and the
ALLL.

Although the bank continued to be Well Capitalized for PCA purposes, examiners
determined that the bank’s capital position was less than satisfactory for its risk profile.
The bank’s liquidity position also fell from strong at the previous examination, to
satisfactory. In addition, the bank had increased its reliance on non-core funding sources,
such as lines of credit, FHLB advances, and repurchase agreements.

Based on the results of the examination, the FDIC and the OFR entered into an MOU with
Peninsula. Among other things, the MOU required the bank to reduce and monitor the
CRE loan concentration, recognize and/or reserve for troubled assets, and enhance the
loan policy with respect to underwriting and credit administration. Following the
examination, bank management provided the FDIC and the OFR with periodic status
reports describing its efforts to address the items contained in the MOU.

                                             14
2009 Supervisory Activities

During the May 2009 examination, FDIC and OFR examiners identified further
significant deterioration in Peninsula’s financial and operational condition and
downgraded the bank’s composite rating to a “5.” Examiners determined that adversely
classified items totaled 332 percent of Tier 1 Capital and the ALLL, much of which
pertained to ADC loans. Although the bank had not originated many new CRE loans
following the prior examination, the administration of existing CRE loans was weak. For
example, examiners identified instances in which interest reserves were not used
appropriately and loans were being renewed without a credit review or principal reduction.
Apparent violations of regulations and contraventions of statements of policy also existed
pertaining to real estate concentrations, appraisals, and the ALLL.

Further, examiners determined that Peninsula’s capital was critically deficient in relation
to the bank’s risk profile and that secondary sources of funding were limited, elevating the
bank’s liquidity risk profile. Examiners made several recommendations, including to
reduce the bank’s reliance on non-core funding and develop a comprehensive contingency
funding plan that addressed funding strategies under critical economic and operating
conditions. In addition, examiners found that compliance with critical provisions of the
November 2008 MOU had not been achieved, including provisions pertaining to
recognizing problem loans.

In a letter dated August 14, 2009, the FDIC notified Peninsula’s Board that the bank had
fallen to Undercapitalized based on its June 30, 2009 Call Report. Consistent with the
requirements of section 38, Peninsula provided the FDIC with a capital restoration plan
dated September 25, 2009. On November 20, 2009, the FDIC, in conjunction with the
OFR, issued a C&D to address the findings of the May 2009 examination. The C&D
included provisions addressing, among other things, management, capital, concentrations,
and earnings. Peninsula provided the FDIC and the OFR with status reports describing the
bank’s efforts to address the items contained in the C&D.

In December 2009, the FDIC conducted a limited scope visitation to assess the bank’s
financial condition and compliance with the C&D. Examiners found further deterioration
in the bank’s condition during the visitation. Among other things, classified assets had
increased to 416 percent of Tier 1 Capital and the ALLL, and Liquidity was downgraded
to a “5.” Further, the bank had fallen to a Significantly Undercapitalized position.

2010 Supervisory Activities

The bank was determined to be Critically Undercapitalized for PCA purposes in March
2010 when the December 31, 2009 Call Report was revised. The FDIC conducted a
limited scope visitation in May 2010 to assess the bank’s capital position and plans to raise
needed capital. Efforts to raise needed capital had not been successful. Examiners also
found that classified assets had increased to 573 percent of Tier 1 Capital and the ALLL,
earnings were critically deficient, and a significant provision was needed to replenish the
ALLL. Although management had put forth efforts to comply with the C&D, the bank
remained in non-compliance with several of the C&D’s provisions, including provisions


                                             15
to reduce the bank’s CRE risk exposure, improve earnings, and increase capital. Absent a
substantial capital infusion, examiners determined that the probability of the bank’s failure
was significant.

Supervisory Lessons Learned

Like other institutions that failed in recent years, Peninsula developed a significant
exposure to CRE and ADC loans at a time when the bank’s financial condition and
lending markets were favorable. This exposure made the bank vulnerable to a sustained
downturn in the real estate market. Such an exposure would be subject to a more forward-
looking risk assessment under the FDIC’s current approach to supervision. As previously
stated, Peninsula’s supervisory ratings during the June 2007 OFR examination did not
fully reflect the substantial risk associated with the institution’s CRE loan portfolio.

The FDIC has taken a number of steps to enhance its supervision program based on the
lessons learned from the financial crisis. Among other things, the FDIC has provided
training to its examination workforce wherein the importance of assessing an institution’s
risk management practices on a forward-looking basis was emphasized. The FDIC has
also issued supervisory guidance addressing risks associated with CRE and ADC lending.

A more conservative supervisory approach with respect to the bank’s reliance on non-core
funding sources, including time deposits of $100,000 or more and brokered deposits, to
support its operations (including lending) might also have been prudent. Such an
approach could have included requiring the bank to submit a plan for stabilizing or
reducing its risk exposure to non-core funding sources when the bank became Adequately
Capitalized in 2005 and again in 2008 when the bank began relying more heavily on such
sources. Such a plan could have served as an additional control for curbing the bank’s use
of non-core funding in the years immediately preceding the bank’s failure.

In August 2008, the FDIC issued FIL-84-2008, entitled Liquidity Risk Management,
which stresses the importance of contingency funding plans for institutions that use
wholesale funding sources, including brokered deposits. In addition, in March 2009, the
FDIC issued FIL-13-2009, entitled The Use of Volatile or Special Funding Sources by
Financial Institutions that are in Weakened Condition. FIL-13-2009 states that FDIC-
supervised institutions having a composite rating of “3,” “4,” or “5” are expected to
establish and implement appropriate plans to mitigate the risks associated with the use of
potentially volatile liabilities.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act, establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The section
requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital level deteriorates. The purpose of section 38
is to resolve the problems of insured depository institutions at the least possible cost to the
DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines the
capital measures used in determining the supervisory actions that will be taken pursuant to


                                              16
section 38 for FDIC-supervised institutions. Part 325 also establishes procedures for the
submission and review of capital restoration plans and for the issuance of directives and
orders pursuant to section 38. The FDIC is required to closely monitor the institution’s
compliance with its capital restoration plan, mandatory restrictions defined under section
38(e), and discretionary safeguards imposed by the FDIC (if any) to determine if the
purposes of PCA are being achieved.

Based on the supervisory actions taken with respect to Peninsula, the FDIC properly
implemented applicable PCA provisions of section 38. Among other things, the FDIC
requested and evaluated the bank’s capital restoration plans, reviewed and monitored the
institution’s Call Report information, and conducted discussions with management
regarding its efforts to raise needed capital. As described below, it may also have been
beneficial to formally notify Peninsula of its Adequately Capitalized status and associated
restrictions in 2005. Table 4 illustrates Peninsula’s capital levels relative to the PCA
thresholds for Well Capitalized institutions as reported by the bank in its Call Reports. A
chronological description of the changes in the bank’s capital categories and the FDIC’s
implementation of PCA follow the table.

Table 4: Peninsula’s Capital Levels, 2005-2010
                                            Tier 1             Total
                         Tier 1             Risk-              Risk-                  PCA Capital
      Period Ended      Leverage            Based              Based                   Category
     Well Capitalized
       Threshold        5% or more       6% or more        10% or more
         Dec-05            7.68%            8.67%             9.29%          Adequately Capitalized
         Dec-06            7.87%            9.94%            10.66%          Well Capitalized
         Dec-07            9.30%           11.32%            12.19%          Well Capitalized
         Dec-08            8.21%            8.97%            10.22%          Well Capitalized
         Dec-09            0.35%            0.47%             0.95%          Significantly Undercapitalized
        Mar-10            -1.53%           -2.04%            -2.04%          Critically Undercapitalized
Source: OIG analysis of UBPRs and examination reports for Peninsula and Part 325 of the FDIC Rules and
Regulations.

Peninsula was considered Well Capitalized for PCA purposes until the institution filed its
September 30, 2005 Call Report reflecting an Adequately Capitalized position. Although
not required by statute or policy, it may have been beneficial to formally notify Peninsula
of its Adequately Capitalized status and associated restrictions in 2005.11 As previously
stated, the institution increased its brokered deposits while it was Adequately Capitalized,
in apparent violation of the FDI Act. Notifying the institution would have promoted
awareness on the part of the Board regarding its obligations to comply with the restrictions
imposed on Adequately Capitalized banks. As previously discussed, Peninsula received a
brokered deposit waiver from the FDIC in May 2006. In November 2006, the bank
received a capital infusion of $17 million and, as a result, reported a Well Capitalized
position in its December 31, 2006 Call Report.

11
  FDIC policy requires that institutions be notified in writing when they fall to Undercapitalized,
Significantly Undercapitalized, or Critically Undercapitalized. The policy does not require notification for
institutions that fall to an Adequately Capitalized position.


                                                     17
Peninsula fell back to Adequately Capitalized based on its March 31, 2009 Call Report.
In a letter dated August 14, 2009, the FDIC notified Peninsula’s Board that, based on its
June 30, 2009 Call Report, the bank had fallen to Undercapitalized. The letter included a
reminder regarding the restrictions imposed on Undercapitalized institutions, including
restrictions pertaining to asset growth, dividends, and management fees. The letter also
requested that the bank submit a capital restoration plan within 45 days of receipt of the
letter. Peninsula submitted a capital restoration plan dated September 25, 2009. However,
RMS could not provide evidence of written notice to the bank advising of the approval or
disapproval of the plan.12 On November 20, 2009, the bank became subject to a C&D,
with a capital provision that required the bank to have Tier 1 Capital of at least 8 percent
and total risk-based capital of at least 12 percent of the bank’s total risk-weighted assets.
In the months that followed, the FDIC monitored the bank’s capital levels and ongoing
efforts to raise new capital through the status reports required by the C&D, the December
2009 visitation, and meetings and discussions with bank management.

In a letter dated March 26, 2010, the FDIC notified Peninsula’s Board that, based on its
December 31, 2009 Call Report, the bank had fallen to Significantly Undercapitalized.
The letter included a reminder regarding the restrictions imposed on Significantly
Undercapitalized institutions. On April 5, 2010, the OFR requested that the bank achieve
a Tier 1 Leverage Capital ratio of no less than 8 percent by May 5, 2010. In response to
the OFR’s request, Peninsula submitted a revised capital restoration plan. In a letter dated
April 16, 2010, the FDIC notified Peninsula’s Board that, based on its revised
December 31, 2009 Call Report, the bank had fallen to Critically Undercapitalized. The
notice included reminders regarding the requirements imposed on Critically
Undercapitalized institutions. The bank submitted a revised capital restoration plan, dated
April 20, 2010.

Peninsula explored a number of strategic alternatives for raising capital, such as working
with investor groups to obtain investments and applying for funds under the Department
of the Treasury’s Capital Purchase Program. However, these efforts were ultimately not
successful. The OFR closed the institution on June 25, 2010 because it did not have
enough capital to continue safe and sound operations.


OIG Evaluation of Corporation Comments
The Director, RMS, provided a written response, dated July 15, 2011, to a draft of this
report. That response is provided in its entirety as Appendix 5 of this report. In the
response, RMS reiterated the causes of failure and supervisory activities described in our
report. The response also noted that the FDIC issued a FIL in 2008, entitled Managing
12
  Section 325.104(c) of the FDIC Rules and Regulation states that the FDIC shall provide written notice to a
bank as to whether its capital restoration plan required under PCA has been approved within 60 days of
receiving the plan. However, the bank became subject to a C&D with a capital maintenance provision
within 60 days of submitting the capital restoration plan. In addition, the FDIC had regular communication
with Peninsula’s management regarding the bank’s ongoing efforts to improve its capital position. As a
result, in our view, the lack of written notice was inconsequential to the supervision or failure of the bank.


                                                     18
Commercial Real Estate Concentrations in a Challenging Environment, that re-
emphasized the importance of robust credit risk-management practices for institutions
with concentrated CRE exposures and set forth broad supervisory expectations. In
addition, the response referenced a 2009 FIL, entitled The Use of Volatile or Special
Funding Sources by Financial Institutions That Are in a Weakened Condition, issued by
RMS to enhance FDIC supervision of institutions with concentrated CRE lending and
reliance on volatile, non-core funding sources.




                                          19
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the DIF incurs a material
loss with respect to an insured depository institution, the Inspector General of the
appropriate federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k)
by increasing the MLR threshold from $25 million to $200 million for losses that occur
for the period January 1, 2010 through December 31, 2011. The FDI Act requires that
the report be completed within 6 months after it becomes apparent that a material loss has
been incurred. The initial estimated DIF loss for Peninsula was under the applicable
$200 million MLR threshold, but the loss estimate subsequently increased, requiring an
MLR.

Our audit objectives were to (1) determine the causes of Peninsula’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act.

We conducted this performance audit from March 2011 to June 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.


Scope and Methodology

The scope of the audit focused primarily on Peninsula’s operations from April 2006 until
its failure in June 2010. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period. In addition, we analyzed information
pertaining to certain other matters that occurred prior to 2006 that we considered relevant
to the audit.

To achieve the objectives, we performed the following audit procedures:

      Analyzed key documentation, including:

           o Examination and visitation reports issued by the FDIC and the OFR from
             2006 to 2010.

           o Institution data in Call Reports, UBPRs, and other reports.



                                            20
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

           o FDIC and OFR correspondence.

           o Other relevant documents prepared by the FDIC relating to the institution.

           o Pertinent FDIC regulations, policies, procedures, and guidance.

      Interviewed RMS examination staff in the Washington, D.C. office; the Atlanta
       Regional Office; and the Tampa Field Office.

      Interviewed OFR examination staff to obtain their perspectives on the failure and
       to discuss their role in the supervision of the institution.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess RMS’s overall internal control or
management control structure. We relied on information in RMS systems, reports, and
interviews of examiners to understand Peninsula’s management controls pertaining to the
causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of RMS’ annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objectives. RMS
compliance with the Results Act is reviewed in program audits of RMS’ operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA. We performed limited tests
to determine compliance with certain aspects of the FDI Act and the FDIC Rules and
Regulations. The results of our tests are discussed, where appropriate, in the report.
Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.




                                            21
                                                                            Appendix 1

                   Objectives, Scope, and Methodology

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum indicated that the OIG
planned to provide more in-depth coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions, and these reports can be
found at www.fdicig.gov. In addition, the OIG issued an audit report entitled, Follow-up
Audit of FDIC Supervision Program Enhancements (Report No. MLR-11-010), in
December 2010. The objectives of the audit were to (1) determine the actions that the
FDIC has taken to enhance its supervision program since May 2009, including those
specifically in response to the May 2009 memorandum, and (2) identify trends and issues
that have emerged from subsequent MLRs.

Further, with respect to more in-depth coverage of specific issues, in May 2010, the OIG
initiated an evaluation of the role and federal regulators’ use of the Prompt Regulatory
Action provisions of the FDI Act (section 38, Prompt Corrective Action, and section 39,
Standards for Safety and Soundness) in the banking crisis. The OIG also began an
evaluation to study the characteristics and related supervisory approaches that may have
prevented FDIC-supervised institutions with significant ADC loan concentrations from
being designated as problem banks or failing during the recent financial crisis.




                                           22
                                                                                  Appendix 2

                                 Glossary of Terms

Term                Definition
Acquisition,        ADC loans are a component of CRE that provide funding for acquiring
Development,        and developing land for future construction, and that provide interim
and Construction    financing for residential or commercial structures.
(ADC) Loans
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease      the book value of loans and leases to the amount that is expected to be
Losses (ALLL)       collected. It is established in recognition that some loans in the
                    institution’s overall loan and lease portfolio will not be repaid. Boards
                    of directors are responsible for ensuring that their institutions have
                    controls in place to consistently determine the allowance in accordance
                    with the institutions’ stated policies and procedures, generally accepted
                    accounting principles, and supervisory guidance.
Call Report         Reports of Condition and Income, often referred to as Call Reports,
                    include basic financial data for insured commercial banks in the form of
                    a balance sheet, an income statement, and supporting schedules.
                    According to the Federal Financial Institutions Examination Council’s
                    (FFIEC) instructions for preparing Call Reports, national banks, state
                    member banks, and insured nonmember banks are required to submit a
                    Call Report to the FFIEC’s Central Data Repository (an Internet-based
                    system used for data collection) as of the close of business on the last
                    day of each calendar quarter.

Capital Purchase    On October 3, 2008, the President signed the Emergency Economic
Program             Stabilization Act of 2008 into law. Among other things, the Act
                    authorized the Secretary of the Department of the Treasury to establish
                    the Troubled Asset Relief Program (TARP), which is administered by
                    the Treasury. Under TARP, the Treasury implemented the Capital
                    Purchase Program through which the Treasury purchased senior
                    preferred stock (and, if appropriate, warrants of common stock) from
                    viable institutions of all sizes. Qualifying financial institutions were
                    permitted to apply for funds under the Capital Purchase Program after
                    consulting with their primary federal regulator.

Capital             Section 325.104(a)(1) of the FDIC Rules and Regulations requires a
Restoration Plan    bank to file a written capital restoration plan with the appropriate FDIC
                    regional director within 45 days of the date that the bank receives notice
                    or is deemed to have notice that the bank is Undercapitalized,
                    Significantly Undercapitalized, or Critically Undercapitalized, unless
                    the FDIC notifies the bank in writing that the plan is to be filed within a
                    different period.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator pursuant to 12 US Code (U.S.C.) section 1818 to a bank or


                                             23
                                                                               Appendix 2

                             Glossary of Terms
                  affiliated party to stop an unsafe or unsound practice or a violation of
                  laws and regulations. A C&D may be terminated when the bank’s
                  condition has significantly improved and the action is no longer needed
                  or the bank has materially complied with its terms.

Commercial Real   CRE loans are land development and construction loans (including 1-
Estate (CRE)      to-4 family residential and commercial construction loans) and other
Loans             land loans. CRE loans also include loans secured by multifamily
                  property and nonfarm nonresidential property, where the primary
                  source of repayment is derived from rental income associated with the
                  property or the proceeds of the sale, refinancing, or permanent
                  financing of the property.

Concentration     A concentration is a significantly large volume of economically related
                  assets that an institution has advanced or committed to a certain
                  industry, person, entity, or affiliated group. These assets may, in the
                  aggregate, present a substantial risk to the safety and soundness of the
                  institution.

Contingency       A written plan that defines strategies for addressing liquidity shortfalls
Funding (or       in emergency situations. Such plans delineate policies to manage a
Liquidity) Plan   range of stress environments, establish clear lines of responsibility, and
                  articulate clear implementation and escalation procedures. Contingency
                  funding plans should be regularly tested and updated to ensure that they
                  are operationally sound. RMS uses the terms contingency funding plan
                  and contingency liquidity plan interchangeably.
FDIC’s            The FDIC’s supervision program promotes the safety and soundness of
Supervision       FDIC-supervised institutions, protects consumers’ rights, and promotes
Program           community investment initiatives by FDIC-supervised institutions. The
                  FDIC’s RMS (1) performs examinations of FDIC-supervised
                  institutions to assess their overall financial condition, management
                  policies and practices (including internal control systems), and
                  compliance with applicable laws and regulations and (2) issues related
                  guidance to institutions and examiners.

Federal Home      FHLBs provide long- and short-term advances (loans) to their
Loan Bank         members. Advances are primarily collateralized by residential
(FHLB)            mortgage loans, and government and agency securities. Community
                  financial institutions may pledge small business, small farm, and small
                  agri-business loans as collateral for advances. Advances are priced at a
                  small spread over comparable U.S. Department of the Treasury
                  obligations.

Material Loss     As defined by section 38(k)(2)(B) of the FDI Act, and as amended by
                  the Financial Reform Act, for the period beginning January 1, 2010 and
                  ending December 31, 2011, a material loss is defined as any estimated
                  loss to the DIF in excess of $200 million.




                                           24
                                                                                  Appendix 2

                                 Glossary of Terms
Memorandum of         An MOU is an informal agreement between the institution and the
Understanding         FDIC, signed by both parties. The state authority may also be a party to
(MOU)                 the agreement. MOUs are designed to address and correct identified
                      weaknesses in an institution’s condition.

Non-core              Non-core funding generally consists of large time deposits (greater than
Funding               $100,000), borrowings/advances, brokered deposits, federal funds
                      purchased, repurchase agreements, and foreign deposits.
Prompt            The purpose of PCA is to resolve the problems of insured depository
Corrective Action institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)             subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                      Regulations, section 325.101, et. seq., implements section 38, Prompt
                      Corrective Action, of the FDI Act, 12 U.S.C., section 1831(o), by
                      establishing a framework for taking prompt supervisory actions against
                      insured nonmember banks that are less than Adequately Capitalized.
                      The following terms are used to describe capital adequacy: (1) Well
                      Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                      (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                      A PCA Directive is a formal enforcement action seeking corrective
                      action or compliance with the PCA statute with respect to an institution
                      that falls within any of the three undercapitalized categories.

Tier 1 (Core)         In general, this term is defined in Part 325 of the FDIC Rules and
Capital               Regulations, 12 Code of Federal Regulations (C.F.R.), section 325.2(v),
                      as:

                      The sum of:
                        Common stockholder’s equity (common stock and related surplus,
                         undivided profits, disclosed capital reserves, foreign currency
                         translation adjustments, less net unrealized losses on available-for-
                         sale securities with readily determinable market values);
                       Non-cumulative perpetual preferred stock; and
                       Minority interest in consolidated subsidiaries;
                      Minus:
                       Certain intangible assets;
                       Identified losses;
                       Investments in securities subsidiaries subject to section 337.4; and
                       Deferred tax assets in excess of the limit set forth in section
                         325.5(g).

Uniform Bank          The UBPR is an individual analysis of financial institution financial
Performance           data and ratios that includes extensive comparisons to peer group
Report (UBPR)         performance. The report is produced by the FFIEC for the use of
                      banking supervisors, bankers, and the general public and is produced
                      quarterly from data reported in Reports of Condition and Income
                      submitted by banks.




                                              25
                                                                            Appendix 2

                           Glossary of Terms
Uniform         Financial institution regulators and examiners use the UFIRS to
Financial       evaluate a bank’s performance in six components represented by the
Institutions    CAMELS acronym: Capital adequacy, Asset quality, Management
Rating System   practices, Earnings performance, Liquidity position, and Sensitivity to
(UFIRS)         market risk. Each component, and an overall composite score, is
                assigned a rating of 1 through 5, with 1 having the least regulatory
                concern and 5 having the greatest concern.




                                        26
                                                                        Appendix 3

                               Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CD       Certificate of Deposit
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
MLR      Material Loss Review
MOU      Memorandum of Understanding
OFR      Office of Financial Regulation
OIG      Office of Inspector General
PCA      Prompt Corrective Action
RMS      Division of Risk Management Supervision
SCOR     Statistical CAMELS Offsite Rating
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                        27
                                                                                                  Appendix 4

                  Peninsula’s Risk Management Weaknesses
                        by Examination and Visitation
                   Reports of Examination Dates            2006     2007   2008*   2008   2009   2009*
                 Risk/Deficiency
Significant Concentration in CRE and ADC Loans                                      
                                                                                       
Loan Underwriting                                                                              

Liberal renewal and extension practices                                           
                                                                                             
Inappropriate use of interest reserves                                           
                                                                            
Inadequate appraisal evaluation                                                         
                                                                            
Inadequate analyses of contingent liabilities, global                                  
cash flow, and competitive projects at loan origination                     
Reliance on collateral protection for loan repayment                                   
                                                                            
Credit Administration                                                                         
Loan Policy did not include risk targets for loan                                        
concentrations as a percentage of capital or limits by                         
individual and overall categories.

Lack of comprehensive enhanced monitoring                                                  
procedures for CRE concentration                                                 
Lack of formal mechanisms to monitor market trends                                           
                                                                                    
Inadequate or lack of global cash flow and financial                                     
statements/repayment capacity                                                          
Lack of updated credit memoranda                                                             
                                                                            
Lack of due diligence on purchased participation loans                                       
                                                                                    
Lack of adherence to the loan policy                                                       
                                                                                         
Lack of revised loan policy                                                                   
Inadequate loan review and problem loan                                          
identification/grading/ALLL methodology
Apparent Violations and Contraventions                                                          
Joint Guidance on Concentrations in Commercial Real                                       
Estate Lending, Sound Risk Management Practices                                          
Part 323/Statement of Policy - Appraisals                                                  
                                                                                         
Interagency Statement of Policy on ALLL                                                     
                                                                                         
Appendix A, Parts II (A), (D), (G) to Part 364 -                                             
Interagency Guidelines Establishing Standards for                                          
Safety and Soundness pursuant to section 39

Section 658.67(9)(a), Florida Statutes - Acquisitions of                                   
Property as Security                                                                     
Section 655.044(1), Florida Statutes - Accounting                                       
Practices; Bad Debts Ineligible to be Carried as Assets

Source: OIG analysis of examination and visitation reports issued from 2006 to 2009.
* Denotes visitation report.




                                                           28
                                                                                       Appendix 5

                      Corporation Comments
    _________________________________________________________



Federal Deposit Insurance Corporation
 550 17th Street NW, Washington, D.C. 20429-9990                              Division of Risk Management Supervision

                                                                                     July 15, 2011
TO:                Mark Mulholland
                   Deputy Assistant Inspector General for Audits

                   /Signed/
FROM:              Sandra L. Thompson
                   Director

 SUBJECT:          Draft Audit Report Entitled, Material Loss Review of Peninsula Bank
                   Englewood, Florida (Assignment No. 2011-048)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance
Corporation’s (FDIC) Office of Inspector General (OIG) conducted a Material Loss Review of
Peninsula Bank (Peninsula), which failed on June 25, 2010. This memorandum is the response
of the Division of Risk Management Supervision (RMS) to the OIG’s Draft Report received on
June 20, 2011.

Peninsula failed due to the Board’s and management’s ineffective oversight of the risks
associated with the rapid growth experienced between 2003 and 2006. This growth led to heavy
concentration in its commercial real estate (CRE) loans and a reliance on non-core funding.
Inadequate credit underwriting practices and oversight of the lending function contributed to a
decline in the quality of the loan portfolio. By April 2009 Peninsula’s asset quality had
significantly deteriorated, requiring increases in the loan loss provisions that depleted earnings,
eroded capital and strained liquidity. Peninsula was unable to raise additional capital to sustain
safe and sound operations.

From 2006 to 2010 the FDIC and the Florida Office of Financial Regulations (OFR) conducted
four on-site examinations, three on-site visitations and offsite monitoring. The 2008 FDIC
visitation and subsequent examination found weaknesses in Peninsula’s loan quality and risk
management practices and that the Board and management had not established a framework to
manage those risks. Peninsula was downgraded and entered into a memorandum of
understanding (MOU) with the FDIC and the OFR. The 2009 joint examination found that full
compliance with the existing MOU had not been achieved in critical areas and that Peninsula’s
overall condition had deteriorated. Peninsula was further downgraded and a cease and desist
order was issued that required increased Board’s participation in the affairs of the institution, the
reduction of credit concentrations, and the need to reduce reliance on non-core funding.

RMS has recognized the threat that institutions with high risk profiles, such as Peninsula, pose to
the Deposit Insurance Fund and issued a Financial Institution Letter to banks in 2008 on
Managing Commercial Real Estate Concentrations in a Challenging Environment, that re-
emphasized the importance of robust credit risk-management practices for institutions with
concentrated CRE exposures and set forth broad supervisory expectations. Additionally, RMS
issued a Financial Institution Letter in 2009 on The Use of Volatile or Special Funding Sources
by Financial Institutions That Are in a Weakened Condition to enhance our supervision of
institutions with concentrated CRE lending and reliance on volatile non-core funding.

Thank you for the opportunity to review and comment on the Report.



                                                    29
